No. 19-643

INTHE

$'upreme QCourt of tbe Wniteb $'!ates
JOHN HURRY, ET AL.,

v.

Petitioners,

FINANCIAL INDUSTRY REGULATORY
AUTHORITY, INC., ET AL.,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 13th day of March, 2020, I caused three copies of the Brief in Opposition of
Respondents Financial Industry Regulatory Authority, Inc. and Scott M. Andersen to
be served by third-party commercial carrier on the counsel identified below, and caused
an electronic version to be transmitted to the counsel identified below, pursuant to Rule
29.5 of the Rules of this Court. All parties required to be served have been served.

Counsel for Petitioners John Hurry, Justine Hurry, Investment Services Corp., and
Scottsdale Capital Advisors Partners LLC
Charles Harder
Dilan A. Esper
HARDERLLP
132 S. Rodeo Dr., 4th Fl.
Beverly Hills, CA 90212
(424) 203-1600
charder@harderllp.com
desper@harderllp.com

